Certificate of Proof of Service

No. 19-

Glen Plourde
Petitioner
v.
Norman Plourde,
Respondent

As required by Supreme Court Rule 29.5(c), I certify that three copies of the
petition for a writ of certiorari have been served upon all listed respondents
within the petition for a writ of certiorari.
Service to Norman Plourde was executed Saturday August 31 by UPS
Ground Shipping, at the following address pursuant to Supreme Court Rule
29.3.
Norman Plourde
455 Chapman Road
Newburgh, Maine 04444
207-234-2042
UPS Tracking Number: 1Z5AR2660332162422
Service to Maine State Supreme Court Chief Justice SaufLey was executed
Saturday August 31 by UPS Ground Shipping, at the following address
pursuant to Supreme Court Rule 29.3.
The Maine State Supreme Court
c/o Chief Justice Saufley
205 Newbury Street
Portland, Maine 04101
207-822-4146
UPS Tracking Number: 1Z5AR2660335921847

1

Service to The State.of Maine was executed Saturday August 31 by UPS
Ground Shipping, at the following address pursuant to Supreme Court Rule
29.3.
Maine State Attorney General’s Office
c/o Maine State Attorney General Aaron M. Frey
6 State House Station
Augusta, Maine 04333
207-626-8800
UPS Tracking Number: 1Z5AR2660329825436
Service to The Federal Bureau of Investigation, The Central Intelligence
Agency, The Department of Justice, and The Office of the Director of
National Intelligence was executed Saturday August 31 2019 by UPS Next
Day Air, pursuant to Supreme Court Rule 29.3 and was made upon the
Solicitor General of The United States pursuant to Rule 29.4(a).
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave. N. W.
Washington, DC 20530-0001
202-514-2203
UPS Tracking Number: 1Z5AR2660131207657

I declare under penalty of perjury that the foregoing is true and accurate.
Executed on September 02, 2019

Glen Plourde

2

Additional material
from this filing is
available in the
Clerk's Office.

